Case: 19-2278 Document:9 Filed: 01/06/2020 Page: 1

UNITED STATES COURT OF APPEALS

FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
Deborah S. Hunt POTTER STEWART U.S. COURTHOUSE Tel. (513) 564-7000
Clerk CINCINNATI, OHIO 45202-3988 www.ca6.uscourts.gov

Filed: January 06, 2020

Mr. Eric George Eckes

Pinales, Stachler, Young & Burrell
455 Delta Avenue

Suite 105

Cincinnati, OH 45226

Re: Case No. 19-2278, USA v. Demario Peterson
Originating Case No. : 2:17-cr-20642-1

Dear Counsel,

This confirms your appointment to represent the defendant in the above appeal under the
Criminal Justice Act, 18 U.S.C. ยง 3006A.

You must file your appearance form and order transcript within 14 days of this letter. The
appearance form and instructions for the transcript order process can be found on this court's
website. Please note that transcript ordering in CJA-eligible cases is a two-part process,
requiring that you complete both the financing of the transcript (following the district court's
procedures) and ordering the transcript (following the court of appeals' docketing
procedures). Additional information regarding the special requirements of financing and
ordering transcripts in CJA cases can be found on this court's website at

http://www.ca6.uscourts.gov/criminal-justice-act under "Guidelines for Transcripts in CJA

Cases."

Following this letter, you will receive a notice of your appointment in the eVoucher
system. That will enable you to log into the eVoucher system and track your time and expenses
in that system. To receive payment for your services at the close of the case you will submit
your voucher electronically via eVoucher. Instructions for using eVoucher can be found on this.
court's website. Your voucher must be submitted electronically no later than 45 days after the
final disposition of the appeal. No further notice will be provided that a voucher is
due. Questions regarding your voucher may be directed to the Clerk's Office at 513-564-7078.
